No.

IN THE SUPREME COURT OF THE UNITED STATES
MARK A. BECKHAM,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
APPLICATION FOR EXTENSION OF TIME TO
FILE A PETITION FOR A WRIT OF CERTIORARI

JUSTIN K. GELFAND
MARGULIS GELFAND, LLC
8000 Maryland Avenue, Suite 420
St. Louis, MO 63105
p: 314.390.0234
f. 314.485.2264
justin@margulisgelfand.com
Counsel for Petitioner

TO THE HONORABLE NEIL M. GORSUCH, ASSOCIATE JUSTICE OF THE
SUPREME COURT OF THE UNITED STATES AND CIRCUIT JUSTICE FOR
THE EIGHTH CIRCUIT:
Pursuant to Supreme Court Rules 13.5, 22, and 30, Petitioner respectfully
requests a 30-day extension of time, up to and including August 14, 2019, to file a
petition for a writ of certiorari to the United States Court of Appeals for the Eighth
Circuit to review that court’s decision in United States v. Mark A. Beckham, 917 F.3d
1059 (8th Cir. 2019) (attached as Exhibit A). The Eighth Circuit issued its judgment
on March 8, 2019. Petitioner filed a petition for rehearing en banc on March 22, 2019.
The Eighth Circuit issued its order denying the petition for rehearing en banc on
April 15, 2019 (attached as Exhibit B).
Petitioner intends to file a petition seeking review of the Eighth Circuit’s
judgment. The jurisdiction of this Court will be invoked under 28 U.S.C. § 1254(1),
and the time to file a petition for a writ of certiorari will expire without an extension
on July 15, 2019. This application is timely because it has been filed more than ten
days prior to the date on which the time for filing the petition is to expire.
1.

This case presents two substantial and important questions of federal

law and raises a question on which there is a circuit split. Petitioner was acquitted of
all but one count and the sole count of conviction was for an alleged violation of 26
U.S.C. § 7212(a). The conviction was obtained before this Court issued its decision in
United States v. Marinello, 138 S.Ct. 1101 (2018). It is undisputed that Petitioner
requested that the jury be instructed consistent with what this Court ultimately
decided in Marinello and that the jury was not so instructed. It is also undisputed

1

that the jury has never made a finding beyond a reasonable doubt of all the elements
required to convict Petitioner of violating Section 7212(a). Applying Neder v. United
States, 527 U.S. 1 (1999), the Eighth Circuit concluded the district court’s
instructional error was harmless beyond a reasonable doubt based on the Eighth
Circuit’s independent review of the evidence presented at trial. In so doing, the
Eighth Circuit created a circuit split. See, e.g., United States v. Stanford, 823 F.3d
814 (5th Cir. 2016) (“We ordinarily presume that jurors ‘follow the instructions they
are given.’ Conversely, absent an appropriate instruction, we cannot presume that
the jurors applied the correct standard of proof. Yet, a defendant is ‘indisputably
entitle[d]’ to ‘a jury determination that [he] is guilty of every element of the crime
with which he is charged, beyond a reasonable doubt’”) (citations omitted).
2.

This week, this Court decided two cases which directly impact

Petitioner’s petition for a writ of certiorari. See United States v. Haymond, No. 171672 (decided June 26, 2019) (“Only a jury, acting on proof beyond a reasonable doubt,
may take a person’s liberty”); Knick v. Twp. of Scott, Pennsylvania, No. 17-647
(decided June 21, 2019) (“We have identified several factors to consider in deciding
whether to overrule a past decision, including ‘the quality of [its] reasoning, the
workability of the rule it established, its consistency with other related decisions, ...
and reliance on the decision’”). Pursuant to the factors identified in Knick, the
viability of Neder is in question.
3.

Undersigned counsel has several upcoming trials, both as retained

counsel and as court-appointed CJA counsel, and other matters involving complicated

2

legal issues requiring substantial in-court litigation. See, e.g., United States v.
Crangle (E.D.Mo. Case No. 4:17-CR-612), United States v. Johnson (E.D.Mo. Case No.
4:18-CR-565) and, United States v. Jaber (E.D.Mo. Case No. 4:18-CR-1018). All of
these commitments will limit undersigned counsel’s availability to work on this
matter between today and July 15, 2019.
Accordingly, Petitioner respectfully requests that an order be entered
extending the time to file a petition for a writ of certiorari for 30 days, up to and
including August 14, 2019.

Dated: June 28, 2019
Respectfully submitted,
/s/ Justin K. Gelfand
Justin K. Gelfand
Margulis Gelfand, LLC
8000 Maryland Avenue, Suite 420
St. Louis, MO 63105
p: 314.390.0234
f. 314.485.2264
justin@margulisgelfand.com
Attorney for Petitioner

3

